   October 21, 2003




Audit Oversight

Quality Control Review of
PricewaterhouseCoopers, LLP and
the Defense Contract Audit Agency
Office of Management and Budget
Circular A-133 Audit Report of the
MITRE Corporation, Fiscal Year
Ended September 30, 2001
(D-2004-6-002)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Office of Audit Policy and Oversight at (703) 604-8758 or fax
  (703) 604 9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact Audit Policy and
  Oversight at (703) 604-8758 (DSN 664-8758) or fax (703) 604-9808. Ideas and
  requests can also be mailed to:

                                      OIG-APO
                    Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 1015)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AMS                   Acquisition Management System
CPE                   Continuing Professional Education
DCAA                  Defense Contract Audit Agency
FAA                   Federal Aviation Administration
FAR                   Federal Acquisition Regulation
FFRDC                 Federally Funded Research and Development Center
GAS                   Government Auditing Standards
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
PwC                   PricewaterhouseCoopers
R&D                   Research and Development
has provided OMB Circular A-133 audit services to The MITRE Corporation since
FY 1997. DCAA provides audit services to the FAA and the Internal Revenue Service
on a reimbursable basis. PwC and DCAA coordinated and accepted certain audit
responsibilities for the FY 2001 single audit of The MITRE Corporation. Audit
responsibilities for the 14 compliance requirements of OMB Circular A-133 were divided
between DCAA (9) and PWC (5)(Appendix B).

Quality Control Review Objective. As the cognizant Federal agency for The MITRE
Corporation, the Office of the Inspector General of the Department of Defense
(OIG DoD) performed a quality control review of the single audit report and supporting
working papers for The MITRE Corporation’s FY 2001 single audit. The objectives of
the review were to determine whether the audit was conducted in accordance with
Generally Accepted Auditing Standards, Government Auditing Standards (GAS), and the
auditing and reporting requirements of OMB Circular A-133 and its related Compliance
Supplement. The scope and methodology for the review is at Appendix A.

Review Results. The DCAA audit of The MITRE Corporation’s Federal programs was
not adequately planned, performed, and reported in accordance with applicable auditing
standards and the audit guidance and requirements in OMB Circular A-133 and its related
Compliance Supplement for the FY 2001 single audit. As a result of inadequate planning
and performance, sufficient evidential matter was lacking to support the report’s opinion
on internal control and compliance with Federal program requirements. Therefore,
Federal agencies could not rely on the audit report to manage their programs. Based on
discussions with DCAA throughout our site visit, the DCAA auditors commenced
corrective actions for the FY 2001 audit. As a result, DCAA provided sufficient support
for its opinion on internal control and compliance, and Federal Agencies can now rely on
the supplemental audit report dated August 27, 2003. The results of our review of DCAA
corrective actions and our recommendations are discussed in finding A.

The MITRE Corporation’s audit report met the reporting requirements in OMB
Circular A-133; however, the Data Collection Form was not completed in accordance
with the requirements of OMB Circular A-133 (finding B).

The PwC audit work generally met the applicable auditing standards and OMB
Circular A-133 requirements. However, we did identify issues pertaining to audit
documentation requirements and continuing professional education that should be
brought to management’s attention but that did not affect the results of our review. These
issues are discussed in the “Other Matters of Interest” section of this report.

DCAA and MITRE provided comments concurring with the recommendations, (see
management comments at pages 19 and 23, respectively), and are taking appropriate
corrective actions.

Finding A. DCAA Audit Planning, Performing, and Reporting of Single Audit. The
DCAA did not conduct the single audit work in accordance with the Generally Accepted
                                            2
Auditing Standards and GAS and did not meet the applicable auditing guidance and
requirements in OMB Circular A-133 and its related Compliance Supplement. The
DCAA auditors failed to exercise due professional care because they did not perform
sufficient audit procedures to support their opinion statement on compliance with major
program requirements. As a result, Federal agencies could not rely on the audit report for
assurance that The MITRE Corporation was managing Federal awards in compliance
with all applicable and relevant laws, regulations, and award provisions. The DCAA
auditors did not do the following:

       •   Identify and consider the FAA AMS regulation when planning and
           performing their audit of compliance requirements;

       •   Properly perform the audit of compliance requirements;

       •   Adequately document the support for audit conclusions;

       •   Report as an audit finding the circumstances for the qualification in the report
           on compliance with major programs; and

       •   Ensure that the DCAA audit report information was accurate.

        Exclusion of the Federal Aviation Administration Procurement Regulation.
The DCAA auditors did not consider the FAA-unique acquisition regulations in planning
and performing the single audit of The MITRE Corporation for FY 2001 because the
DCAA auditors were not aware that the FAA had its own acquisition regulation, the
AMS. Instead, the auditors conducted the single audit based exclusively on the
requirements of the FAR. The AMS regulations were established in 1996 under the
authority of the 1995 Department of Transportation Authorization Act (Public
Law 104-264), which exempts FAA acquisitions from all other acquisition and
procurement statutes and regulations. Because the DCAA auditors did not identify and
consider the requirements of the AMS in their audit, their understanding and testing of
internal controls and compliance were inadequate for the following compliance
requirements:

       •   Activities Allowed or Unallowed

       •   Allowable Costs/Cost Principles

       •   Equipment and Real Property

       •   Procurement, Suspension, and Debarment

The standards of field work require that the audit be adequately planned to meet the audit
objectives. The objective of the single audit of Federal programs is to provide assurance
that the organization is managing and expending Federal funds according to the laws,
                                             3
regulations, and contract and grant provisions that are material to the program.
Identifying and understanding the FAA acquisition regulations are essential to meeting
the audit objective. The DCAA auditors need to review and include the AMS regulation
in their audit and perform audit procedures related to internal controls and compliance
testing for the compliance requirements that DCAA is responsible for.

               DCAA Corrective Actions. Based on our discussions of the deficiencies,
DCAA performed additional procedures related to internal control and compliance
against the AMS regulations and provided working paper documentation for our review.
The additional procedures were for the allowable costs, allowable activities, equipment,
and procurement requirements. Based on our review of the subsequent working paper
documentation and limited retesting of the audit procedures performed, we consider the
actions taken on the allowable costs, allowable activities and equipment requirements to
be adequate. In addition, the DCAA auditors appropriately revised The MITRE
Corporation’s single audit report for FY 2001 to include references to the AMS
regulation where appropriate.

However, the additional audit procedures performed to determine the adequacy of
internal controls and compliance with procurement requirements were still inadequate.
Specifically, DCAA relied on a limited comparison of AMS and FAR procurement
regulations provided by the FAA program manager to determine that no additional audit
work was needed because there were no significant differences between the two
regulations. The objective of the program manager’s comparison did not address the
objectives of the procurement requirements relating to The MITRE Corporation. The
objective of the OMB Circular A-133 requirements for procurement testing is to provide
reasonable assurance that MITRE is complying with the FAA policy on subcontracting,
while the objective of the program manager’s comparison was to address procurements
conducted by the FAA. Therefore, to comply with auditing standards and OMB
Circular A-133 requirements, DCAA should have performed additional procedures to
determine MITRE controls over and compliance with procurement requirements of the
FAA FFRDC.

        Audit of Compliance Requirements. An agreement between PwC and DCAA
designated DCAA responsible for auditing nine compliance requirements (Appendix B).
The DCAA audit of compliance requirements did not, in all cases, meet the applicable
auditing standards, the audit guidance and requirements in OMB Circular A-133, and its
related Compliance Supplement because the DCAA auditors did not:

       •   properly identify all of the applicable compliance requirements;

       •   use a representative sample of Federal awards to test compliance for the
           Period of Availability and the Equipment and Real Property Management
           compliance requirements; and


                                            4
       •   perform adequate audit procedures to test compliance with major program
           requirements for the Special Tests and Provision compliance requirement.

                Determination of Applicable Compliance Requirements. Of the
nine compliance requirements that DCAA reviewed, the auditors concluded that three
were not applicable to The MITRE Corporation’s Federal programs: (a) Matching, level
of effort, and earmarking, (b) program income, and (c) reporting. For the one compliance
requirement concerning matching, level of effort, and earmarking, the DCAA auditors
performed sufficient audit procedures to determine that this compliance requirement was
not applicable. For the remaining two compliance requirements that were considered not
applicable, the DCAA auditors determined that the compliance requirements were not
applicable because The MITRE Corporation did not receive any grants within its
FFRDCs. Based on this determination, the DCAA auditors did not perform any audit
procedures related to understanding and testing internal controls or perform any
compliance testing for program income and reporting compliance requirements.

The lack of receipt of grant awards is not valid justification for excluding these two
compliance requirements from the audit of Federal awards. OMB Circular A-133 defines
Federal awards as Federal financial assistance (to include grants) and cost reimbursable
contracts. A grant is only one type of Federal award and should not be used as the sole
basis in determining whether or not a compliance requirement is applicable. Our review
of the FFRDC contracts disclosed numerous reporting requirements, thereby making the
reporting compliance requirement applicable. Reporting requirements included, but were
not limited to, the submission of contract funds status reports, technical reports, cost and
schedule performance reports, subcontracting reports, and financial status reports.
Although we did not perform specific procedures to determine whether the program
income compliance requirement was applicable, the DCAA auditors should have
performed additional audit procedures, such as those suggested in the OMB Compliance
Supplement, Part 3-J, to properly determine the applicability of this compliance
requirement.

                        DCAA Corrective Actions. Based on our discussion of the
deficiencies prior to issuance of the draft report, DCAA performed additional auditing
procedures to assess the applicability of the reporting and program income requirements.
DCAA also performed internal control and compliance audit procedures as appropriate.
DCAA provided us with supporting working paper documentation. DCAA performed
additional procedures to adequately review the internal control over and compliance with
the reporting requirement and supported their prior determination on program income.
Based on our review, we consider DCAA corrective actions sufficient.

                Audit Coverage and Representative Universe. The DCAA auditors did
not plan for adequate audit coverage to achieve the objectives for the Period of
Availability and the Equipment and Real Property Management compliance
requirements. The DCAA auditors did not select transactions from a representative
universe to test compliance. As a result, the sample selection was not representative of
                                             5
all the FFRDC awards in the R&D cluster. The auditors selected transactions from a
universe that contained only Air Force transactions for testing compliance with the Period
of Availability requirement and that did not contain Internal Revenue Service
transactions for testing compliance with the Equipment and Real Property Management
requirements.

The American Institute of Certified Public Accountants Statements on Auditing
Standards AU §350.24 states that sample items should be selected in such a way that the
sample can be expected to be representative of the population. Therefore, all items in the
population should have an opportunity to be selected. The DCAA auditors should have
selected transactions from a representative universe of all FFRDCs to test compliance for
these two compliance requirements.

                        DCAA Corrective Actions. Based on our discussion of the
deficiencies prior to issuance of the draft report, DCAA performed additional procedures
to address the compliance testing deficiencies for the Period of Availability and
Equipment requirements and provided supporting audit documentation for our review.
We consider the DCAA corrective actions sufficient.

                Compliance Testing for Special Tests and Provisions. The DCAA
auditors did not perform adequate tests of compliance for the Special Tests and
Provisions compliance requirement. Although the DCAA auditors developed an
understanding and performed limited testing of internal controls for this compliance
requirement, the nature and extent of the compliance testing was insufficient to determine
compliance. As part of their compliance testing, the DCAA auditors reviewed contract
award documents and modifications to determine whether there were any special contract
terms and provisions. However, based on our review of the DCAA audit documentation,
there was no indication of what DCAA had considered to be special contract terms and
provisions or indication of any audit work other than interviewing the resident
administrative contracting officer to determine whether he monitors and tracks any
special contract terms and provisions for the Air Force contract. Based on our review,
there was no evidence of any transaction testing to test compliance with special contract
terms and provisions, and there was no indication of any audit procedure performed to
substantiate the assertions made by the resident administrative contracting officer.

Our review of the various FFRDC contracts showed special contract terms and
provisions, including the prohibition of doing work for private concerns unless authorized
in writing; requirements for background investigations; prior written approval from the
contracting officer for employment of individual consultants or consultant firms to
exceed 40 hours in any quarter; and prior written approval for the lease or purchase of
equipment, software, or materials. The DCAA auditors should have performed additional
audit procedures to adequately identify and test compliance for the Special Tests and
Provisions requirements.


                                            6
                        DCAA Corrective Actions. Based on our discussion of the
deficiencies prior to issuance of the draft report, DCAA performed additional audit
procedures to adequately test for compliance with special tests and provisions applicable
to MITRE Federal Awards. The corrective actions taken involved reviewing MITRE
sponsoring agreements, documenting special provisions, and performing additional audit
procedures to adequately test for compliance. We consider DCAA corrective actions to
be sufficient.

        Audit Documentation. The DCAA auditors did not adequately document the
support for internal control and compliance testing when they relied on procedures
performed in other audit assignments, and the working papers did not document when an
audit procedure was intended to serve as a dual-purpose test of internal control and
compliance. In addition, the working papers did not document the auditing procedures
performed to follow up on MITRE corrective actions to a purchasing system review
recommendation.

The DCAA auditors did not provide an adequate audit trail to prior audit work and other
audit assignments used to support significant conclusions in the FY 2001 audit. The
audit documentation did not explain how the procedures performed in the referenced
assignments fulfilled the audit objectives for the current OMB A-133 audit. For example,
the audit documentation on internal controls for the Activities Allowed or Unallowed and
Allowable Costs/Costs Principles requirements state that the auditors relied on the audit
work performed for the prior FY 2000 OMB A-133 single audit and the FY 2001
Accounting System Review. However, the documentation did not identify the specific
working papers within those two assignments where the referenced work was performed
or describe how the procedures performed in the referenced assignments addressed the
objectives of the review of internal control over compliance for the Activities Allowed or
Unallowed and the Allowable Costs/Costs Principles requirements. As a result, the
DCAA auditors had to provide significant oral explanations to enable us to determine
whether there was sufficient evidence to support certain DCAA audit conclusions. In
addition, during our review of the adequacy of internal control testing for the
procurement and allowable costs and allowable activities requirements, the DCAA
auditors had to verbally explain the testing methodology used to test internal controls and
compliance because it was not in their audit documentation.

The DCAA working papers did not document that the auditors performed followup
procedures to determine whether MITRE had taken the required corrective action on a
formal recommendation from the Defense Contract Management Agency or on similar
suggestions for improvement in two consecutive DCAA purchasing system review
reports. During our review of the audit of purchasing system requirements, we
discovered that the Defense Contract Management Agency performed a Contractor
Purchasing System Review in January 2001, which resulted in a formal recommendation
that required corrective actions by MITRE management. The Defense Contract
Management Agency found that MITRE purchasing personnel did not have recent FAR
training and recommended that employees be given training on U.S. Government
                                            7
contracting and FAR requirements, focusing on areas subject to cost or requirements
and/or exempt from cost or pricing data due to the acquisition of commercial items.
DCAA included similar recommendations as a “Suggestion for Improvement” in
purchasing system review reports issued in March 1998 and March 2001. However,
because the followup procedures were not documented in the working papers, we had to
rely on verbal explanations and documentation provided to us after our visit to determine
that DCAA had performed adequate followup procedures for the FY 2001 audit.

GAS requires that audit documentation contain sufficient information to enable an
experienced auditor, who has had no previous connection with the audit, to ascertain
from the audit documentation the evidence that supports the auditor’s significant
judgments and conclusions. Audit documentation should be appropriately detailed to
provide a clear understanding of its purpose and source and should be appropriately
organized to provide a clear link to the findings, conclusions, and recommendations.
Without significant verbal explanations, we were unable, in many cases, to determine that
the audit objectives were accomplished and that conclusions were supported with
sufficient competent evidence.

        Reporting. DCAA auditors qualified the report on compliance because they were
not able to perform procedures necessary to rely on the work performed by other auditors
on U.S. Government Classified/Special Projects. The DCAA audit report should have
reported as an audit finding in the Schedule of Findings and Questioned Costs the
circumstances that caused DCAA to give a qualified opinion on compliance for The
MITRE Corporation’s major programs. OMB Circular A-133 section §__.510(a)(5)
requires the auditor to report as an audit finding in the Schedule of Findings and
Questioned Costs why the auditor’s report on compliance for major programs is other
than an unqualified opinion. The DCAA auditors need to revise the findings section of
the Schedule of Findings and Questioned Costs to include as an audit finding the
circumstances for the qualification.

        Accuracy of Audit Report Information. The FY 2001 single audit report
contained several inconsistent statements that need to be corrected so that the report can
be relied on by program managers and other report users.

The Schedule of Findings and Questioned Costs prepared by DCAA did not reflect the
opinion on major program compliance that was stated in the audit report. Specifically,
the DCAA opinion statement on compliance was qualified, however the Schedule of
Findings and Questioned Costs, which summarizes report and audit information, reflects
that the report on compliance with major programs contained an unqualified opinion.
DCAA needs to correct the Schedule of Findings and Questioned Costs to reflect the
correct audit opinion.

The DCAA report section “Subject of Audit” contains a statement that DCAA has the
“responsibility to express an opinion on whether the Schedule of Expenditures of Federal
Awards is fairly stated, in all material respects, in relation to the auditee’s financial
                                             8
statements taken as a whole.” However, as agreed under the coordinated audit approach,
PwC was responsible for and rendered an opinion on the Schedule of Expenditures of
Federal Awards. During our site visit, DCAA acknowledged that it was not responsible
for and did not express an opinion on the schedule. Therefore, the DCAA auditors
should have eliminated the statement from the FY 2001 single audit report.

Recommendation A. We recommend that the Branch Manager, Defense Contract Audit
Agency Northern New England Branch Office:

         1. Require the auditors to review the Federal Aviation Administration
Acquisition Management System regulations and perform additional audit procedures to
test internal control over and compliance with the criteria related to procurement
compliance requirements for FY 2001.

        2. Require the auditors to revise the Schedule of Findings and Questioned Costs
to include the circumstances for the qualification as an audit finding for the FY 2001
single audit report.

        3. Revise the FY 2001 single audit report for The MITRE Corporation to reflect
the qualified opinion on compliance in the Schedule of Findings and Questioned Costs, to
eliminate the reference to providing an opinion on the Schedule of Expenditures of
Federal Awards, and to include references to the Acquisition Management System
regulation where appropriate.

      4. Submit a copy of the revised FY 2001 single audit report to the Controller of
The MITRE Corporation.

       5. Review and consider Federal agency-specific regulations in all future OMB
Circular A-133 audits.

        6. For all future OMB Circular A-133 audits, require auditors to document: (a)
specific work paper references when relying on procedures performed in other audit
assignments to satisfy current audit objectives and (b) testing methodology used to test
internal controls and compliance.

DCAA Comments. DCAA Management provided comments, concurring with each of
the recommendations (management comments at page 19). The actions taken meet the
intent of our recommendations.

Finding B. Data Collection Form. The MITRE Corporation did not submit a Data
Collection Form that fully complied with OMB Circular A-133 requirements. OMB
Circular A-133 §__.320(b)(2)(x) and the instructions on the Data Collection Form require
that Part III of the Data Collection Form report the programs within the R&D cluster at
the same level of detail presented in the Schedule of Expenditures of Federal Awards.


                                             9
We performed an initial review of the FY 2001 single audit report in January 2003 and
notified The MITRE Corporation in a letter dated February 6, 2003, that Part III of the
Data Collection Form was not accurately prepared and that a revised form should be
submitted to the Federal Audit Clearinghouse. A revised form was submitted to the
Federal Audit Clearinghouse; however, it was still incomplete. Specifically, the revised
form still does not present Federal awards at the same level of detail as the Schedule of
Expenditures of Federal Awards because it does not list the contract numbers associated
with each Federal program.

Recommendation B. We recommend that the Controller of The MITRE Corporation:

       1. Revise Part III of the Data Collection Form to list the programs within the
Research and Development cluster at the same level of detail as in the Schedule of
Expenditures of Federal Awards and submit the revised form to the Federal Audit
Clearinghouse.

MITRE Comments. MITRE provided comments concurring with the recommendations
(management comment at page 23). The Manager, General Accounting, stated that a
revised FY 2001 Data Collection Form is being submitted to the Federal Audit
Clearinghouse and that the level of detail is the same as the Schedule of Expenditures of
Federal Awards.

      2. Submit a revised FY 2001 single audit report that incorporates the revised
Defense Contract Audit Agency FY 2001 OMB Circular A-133 audit report.

MITRE Comments. MITRE provided comments concurring with the recommendations.
MITRE stated that it would submit the DCAA supplemental FY 2001 OMB Circular A-
133 audit report to the Federal Audit Clearinghouse.

Other Matters of Interest. As a result of our quality control review, we identified the
following issues that need to be addressed by PwC for future single audits. We discussed
those issues with PwC officials and they agreed to implement corrective action for future
single audits.

       Audit Documentation Requirements and Enhancements. The PwC audit team
on the MITRE Corporation Engagement needs to better document the audit work
performed for OMB Circular A-133 audits. Specifically, for the single audit of The
MITRE Corporation for the fiscal year ending September 30, 2001, the PwC auditors did
not prepare a separate audit document to address the reasonableness of the status of
findings and corrective actions taken by The MITRE Corporation as contained in the
Summary Schedule of Prior Audit Findings. Other areas in need of audit documentation
enhancements include providing a clear audit trail when referencing to other related audit
documentation; creating a separate audit document to tie in all the elements on sampling;
providing an overall conclusion in the audit documentation or whether an isolated


                                            10
findings and recommendations on audit planning, performance, and documentation and
one report contained suggestions for improvements to audit documentation.

Since October 1, 1998, we have performed six quality control reviews of DCAA.
Three of the six reports contained deficiencies resulting in findings and recommendations
on audit planning, performance, and documentation. Our review indicates that similar
deficiencies still exist.

Copies of Inspector General of the Department of Defense (IG DoD) reports can be
accessed over the Internet at http://www.dodig.osd.mil/audits/reports.

Single Audit Requirements
The intention of the Single Audit Act, Public Law 98-502, as amended, and OMB
Circular A-133 was to improve the financial management of State and local governments
and non-profit organizations. The Single Audit Act and OMB Circular A-133 establishes
one uniform set of auditing and reporting requirements for all Federal award recipients
who are required to obtain a single audit. OMB Circular A-133 establishes policies that
guide implementation of the Single Audit Act and provides an administrative foundation
for uniform audit requirements of non-Federal entities administering Federal awards.
OMB Circular A-133 requires that Federal departments and agencies rely on and use the
single audit work to the maximum extent practicable. Entities that expend $300,000 or
more of Federal awards in a fiscal year are subject to the Single Audit Act and the audit
requirements in OMB Circular A-133 and, therefore, must have an annual single or
program-specific audit performed under GAS. To meet the intent of the law and OMB
Circular A-133 requirements, the auditee (non-Federal entity) submits to the Federal
Audit Clearinghouse a complete reporting package and a Data Collection Form on each
single audit. The submission includes the following:

           •   Data Collection Form, certified by the auditee that the audit was
               completed in accordance with the OMB Circular A-133;

           •   Financial statements and related opinion;

           •   Schedule of Expenditures of Federal Awards and related opinion;

           •   Report on compliance and internal control over financial reporting;

           •   Report on internal control over compliance for major programs;

           •   Report on compliance with requirements for major programs and related
               opinion;

           •   Schedule of Findings and Questioned Costs;


                                            13
            •   Summary Schedule of Prior Audit Findings; and

            •   A corrective action plan, when appropriate.

The OMB Compliance Supplement (the Supplement) assists auditors to identify the
compliance requirements that the Federal Government expects to be considered as part of
the single audit. For each compliance requirement, the Supplement describes the related
audit objectives that the auditor shall consider in each audit conducted under OMB
Circular A-133 as well as suggested audit procedures. The Supplement also describes the
objectives of internal control and characteristics that, when present and operating
effectively, may ensure compliance with program requirements. The following
14 compliance requirements identified in the Supplement are applicable to the R&D
cluster.

       A.   Activities Allowed/Unallowed
       B.   Allowable Costs/Cost Principles
       C.   Cash Management
       D.   Davis-Bacon Act
       E.   Eligibility
       F.   Equipment and Real Property Management
       G.   Matching, Level of Effort, Earmarking
       H.   Period of Availability of Federal Funds
       I.   Procurement and Suspension and Debarment
       J.   Program Income
       K.   Real Property Acquisition and Relocations Assistance
       L.   Reporting
       M.   Subrecipient Monitoring
       N.   Special Tests and Provisions

The Statement of Position 98-3, “Audits of States, Local Governments, and
Not-for-Profit Organizations Receiving Federal Awards,” published by the American
Institute of Certified Public Accountants, provides guidance on auditor responsibilities
for conducting audits according to the Single Audit Act and OMB Circular A-133 (the
AICPA has converted the Statement of Position into an audit guide). In general, the
Statement of Position 98-3 provides auditors with an understanding of the unique
planning, performance, and reporting considerations for single audits performed under
GAS. In addition, the Statement of Position 98-3 uses summary tables and detailed
discussions to provide the auditor with an understanding of the additional general, field
work, and reporting requirements under GAS, including the additional standards relating
to quality control systems, continuing professional education, working papers, audit
followup and reporting.

The Statement of Position 98-3 emphasizes that when planning an audit to meet the
requirements of OMB Circular A-133, several factors should be considered in addition
to those ordinarily associated with an audit of financial statements in accordance with
                                             14
Generally Accepted Auditing Standards and GAS. The factors include but are not
limited to:

          1. Determining that the Schedule of Expenditures of Federal Awards is
             presented fairly in relation to the financial statements;

          2. Determining major programs for audit using a risk-based approach;

                 a. Determining compliance requirements;

                 b. Gaining an understanding of internal control over Federal
                    programs;

                 c. Testing internal control over major programs;

                 d. Determining compliance with laws, regulations, and the provisions
                    of contract or grant agreements that have a direct and material
                    effect on each major program;

                 e. Satisfying the additional requirements of the Single Audit Act and
                    OMB Circular A-133 for working papers, audit followup, and
                    reporting.




                                         15
Appendix B. Coordinated Audit Responsibilities
            for the Audit of Federal Programs

                                                       Audit Responsibilities

  OMB Circular A-133 Compliance Requirements            DCAA         PWC

 Activities Allowed or Unallowed                           X
 Allowable Costs/Costs Principles                          X
 Cash Management                                                       X
 Davis-Bacon Act                                                       X
 Eligibility                                                           X
 Equipment and Real Property Management                    X
 Matching, Level of Effort, Earmarking                     X
 Period of Availability of Federal Funds                   X
 Procurement and Suspension and Debarment                  X
 Program Income                                            X
 Real Property Acquisition and Relocation Assistance                   X
 Reporting                                                 X
 Subrecipient Monitoring                                               X
 Special Tests and Provisions                              X




                                           16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy

Other Defense Organizations
Director, Defense Contract Audit Agency
Branch Manager, Defense Contract Audit Agency Northern New England Branch Office
Director, Defense Advanced Research Projects Agency

Department of the Army
Assistant Secretary of the Army for Financial Management and Comptroller
Auditor General, Department of the Army

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Federal Agencies
Federal Aviation Administration
Office of the Inspector General, Department of Commerce
Office of the Inspector General, Federal Communications Commission
Office of the Inspector General, Department of Justice
Office of the Inspector General, General Services Administration
Office of the Inspector General, National Aeronautics and Space Administration
Office of the Inspector General, Department of State
Office of the Inspector General, Department of Transportation
Office of the Inspector General, Department of the Treasury




                                          17
Non-Government Organizations
Board of Trustees, The MITRE Corporation
Audit Committee, The MITRE Corporation
Chief Financial Officer, The MITRE Corporation
Assistant Controller, The MITRE Corporation
Partner in Charge, PricewaterhouseCoopers, LLP
Audit Manager, PricewaterhouseCoopers, LLP
Board of Directors, American Institute of Certified Public Accountants

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                           18
Defense Contract Audit Agency
Comments




                     19
20
21
22
The MITRE Corporation
Comments




                   23
                PriceWaterhouseCoopers LLP
                Comments
Final Report
 Reference




Clarification




Request
adopted




                                    24
Evaluation Team Members
The Deputy Inspector General for Inspections and Policy, Office of the Inspector General
of the Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are listed
below.

Carolyn R. Davis
Janet Stern
Sharon N. Vasquez
Sherry D. Angwafo
Monica M. Harrigan
Krista S. Gordon
Jacqueline N. Pugh
